                                   Office of Inspector General
                                                                May 2013

Business Loans                                 by the first man in connection with a         California Woman Charged
                                               Texas hotel. The indictment alleged
New Jersey Loan Officer Sentenced              that he provided fraudulent bank state-       On May 15, 2013, a California woman
                                               ments to a bank when securing a               was charged via Criminal Information
On May 7, 2013, a former New Jersey            $990,000 SBA-guaranteed loan in 2008          with one count of false statements to a
loan officer was sentenced to 36 months        to purchase the hotel. Some state-            federally insured bank. She pled guilty
of probation, and ordered to pay               ments were altered to show a signifi-         to the charge on May 22, 2013. The
$127,822 in restitution, and a $100 spe-       cantly higher account balance and oth-        investigation centered on the woman’s
cial assessment fee. He previously pled        ers showed him as the accountholder           application for a $1,750,000 bank loan
guilty to a Criminal Information charging      when the account actually belonged to         for her company, which managed park-
him with one count each of making false        the second man, the seller of the hotel.      ing facilities and provided shuttle ser-
statements and concealing material             Further, the seller allegedly funded the      vices. The loan was to be used for work-
facts. The investigation revealed that an      buyer’s full cash injection, attempting       ing capital and to consolidate business
organized group of foreign nationals           to disguise money loaned to the buyer         debt and was guaranteed by the SBA
were obtaining credit cards and loans          as consulting fees and sales commis-          using ARRA funds. The investigation
from various lending institutions using        sions. In July 2009, the buyer received       found the woman failed to disclose lia-
false identities, documents, and business      a second SBA-guaranteed loan for              bilities owed to friends and family and
names. Loan officers at various banks          $510,000 to make improvements and             past-due tax debt, some of which were
were also involved in the scheme. Many         additions to the hotel. Again, the seller     paid with the loan proceeds.
of the loans were SBA-guaranteed under         allegedly supplied the funds for the
the Express Loan program. The former           buyer’s cash injection. Records in the        Disaster Loans
loan officer assisted in securing loans for    loan file also identified the seller as the
the group by falsifying site visit forms for   general contractor handling the con-
                                                                                             Retired Texas Judge Sentenced
their businesses. Sixteen loans totaling       struction project, in spite of his claim
approximately $2 million were identified       that he was planning to leave the Unit-
                                                                                             On May 29, 2013, a retired Texas judge
as having been originated by him. The          ed States.
                                                                                             was sentenced to one-year of probation
majority of these loans have been                                                            and a $2,000 fine. Prior to sentencing,
charged-off resulting in losses of approxi-                                                  he paid back the remaining $106,000
mately $1.6 million. This is a joint inves-
                                               Recovery Act
                                                                                             SBA disaster loan balance. The sentenc-
tigation with the Internal Revenue Ser-                                                      ing relates to his false claims to the SBA
vice (IRS) – Criminal Investigation (CI),      California Man Charged                        and the Federal Emergency Manage-
the Englewood New Jersey Police De-                                                          ment Agency (FEMA) to obtain Hurri-
partment, and the Bergen County Prose-         On May 13, 2013, a California man was         cane Ike disaster assistance. The investi-
cutors’ Office.                                charged by a Criminal Information with        gation determined that the man ob-
                                               one count of making false statements.         tained approximately $132,000 in SBA
                                               In March 2009, the man applied for a          and FEMA funds by falsely claiming his
Texas Men Indicted                             $50,000       SBA-guaranteed small busi-      primary residence was in Crystal Beach,
                                               ness loan under the American Recovery         Texas. In addition, he provided false
On May 8, 2013, two Texas men were
                                               and Reinvestment Act (ARRA). He cer-          statements concerning his required per-
each indicted on one count of wire fraud
                                               tified that the information contained in      sonal equity injection for the SBA disas-
and one count of conspiracy. The indict-
                                               his application and on SBA forms was          ter loan. This is a joint investigation with
ment also included a notice of criminal
                                               true and complete, which caused the           the Department of Homeland Security
forfeiture for property, money, and/or
                                               bank to approve his loan. In his loan         Office of Inspector General (OIG).
substitute assets estimated to be at least
                                               application, however, the applicant
$1,041,096. This amount represents the
                                               allegedly misrepresented his criminal
post-liquidation loss amount attributable
                                               history.
to two SBA-guaranteed loans obtained
                                                                                                                        Page 2

                          Government                         socially disadvantaged busi-      Small Business (SDVOSB) set-
                                                             nesses compete in the mar-        aside program by claiming
                          Contracting                        ketplace. The superseding         one of the companies to be a
                                                             indictment charges that the       certified SDVOSB when it was
                          Idaho Woman Indicted               woman’s construction com-         not. Further, the indictment
                                                             pany received more than $2.5      alleged that the individuals
                          On May 17, 2013, a supersed-       million in government con-        engaged in a series of acts to
                          ing indictment was filed           tracts based on the compa-        cover up the true ownership
                          against an Idaho woman who         ny’s fraudulently obtained        and control of the alleged
                          was the president and majori-      SBA 8(a) status and more          SDVO qualified company by
                          ty stockholder of construction     than $6 million based on the      misrepresenting the true
                          company. The woman was             company’s false DBE status.       ownership to the federal gov-
                          charged with four counts of        The charges allege that the       ernment and its agencies. It
                          making and subscribing a           woman took steps to lower         is also alleged that the com-
                          false tax return, two counts       her personal net worth, such      pany was acting as a front for
                          of conspiracy, five counts of      as acquiring, holding, and        the second company and
                          wire fraud, one count of mak-      transferring assets into the      related companies to secure
                          ing a false statement, five        names of nominees, thus           SDVOSB contracts from the
                          counts of mail fraud, four         enabling her to successfully      U.S Department of Veterans
                          counts of interstate transpor-     apply for and be admitted         Affairs and the U.S. Depart-
                          tation of property taken by        into the 8(a) Program. The        ment of Defense.
                          fraud, one count of conspira-      Superseding Indictment alleg-
                          cy to commit money launder-                                          On May 23, 2013, four sei-
                                                             es that her actions allowed
                          ing, one count of conspiracy                                         zure warrants were issued to
                                                             her business to maintain,
                          to obstruct justice, and one                                         secure illicit proceeds from
                                                             fraudulently, its certification
                          count of obstructing justice.                                        accounts held at financial
                                                             with the DBE Program in the
                          The superseding indictment                                           institutions under the control
                                                             states of Idaho and Utah.
                          also seeks forfeiture of over                                        of the individuals. The funds
                                                             This is a joint investigation
                          $9 million as the proceeds of                                        to be seized total in excess of
                                                             with the IRS CI, DOT OIG, and
                          the alleged crimes. In addi-                                         $3.6 million. This is a joint
                                                             the FBI.
                          tion, it charges the woman’s                                         investigation with the De-
 32-Count Indictment      business partner and a minor-                                        fense Criminal Investigative
                          ity shareholder with ob-                                             Service (DCIS), General Ser-
    Issued in Iowa                                           Indictments Issued in Iowa
                          structing and conspiring to                                          vices Administration OIG, U.S.
    For Scheme to         obstruct a federal criminal        On May 22, 2013, two Iowa         Department      of     Veteran
                          proceeding.      The charges       individuals and two construc-     Affairs OIG, and the Federal
 Fraudulently Obtain                                         tion firms were charged in a      Deposit Insurance Corpora-
                          against the woman and her
   $23.4 Million in       partner relate to fraud within     32-count indictment contain-      tion OIG.
                          the SBA’s Section 8(a) Pro-        ing charges of conspiracy to
Contracts through SBA’s                                      commit offense(s) or to de-
                          gram through which partici-
   Service-Disabled       pants are allowed access to a      fraud the United States, ma-      Florida Man Pleads Guilty
                          variety of federal set-aside       jor fraud, attempt and con-
 Veteran-Owned Small                                                                           On May 23, 2013, a Florida
                          contracts. In addition, partici-   spiracy, and money launder-
                                                                                               man pled guilty in U.S. Dis-
  Business (SDVOSB)       pants within the program are       ing. In addition, one of the
                                                                                               trict Court, Eastern District of
                          grandfathered into the U.S.        individuals and one company
  Set-aside Program.                                                                           Virginia, to one count of ma-
                          Department of Transporta-          were also charged with wire
                                                                                               jor fraud against the govern-
                          tion’s (DOT) Disadvantaged         fraud. The indictment alleged
                                                                                               ment. The man admitted that
                          Business Enterprise (DBE)          that the individuals and com-
                                                                                               in 2005, he learned that an
                          program, which offers similar      panies took part in a scheme
                                                                                               executive at a protection ser-
                          set-aside contracts within         to obtain approximately
                                                                                               vices firm illegally controlled
                          each state. The 8(a) and DBE       $23.4 million in contracts
                                                                                               another security service con-
                          programs are both designed         through the SBA’s Service-
                                                                                               sulting company based in
                          to help economically and           Disabled      Veteran-Owned
                                                                                               Arlington, Virginia.
                                                                                                                                    Page 3

The consulting company was a
participant in the SBA Section 8                                    Office of Inspector General
(a) Program, which enables cer-
                                                                        Peggy E. Gustafson
tain small businesses to receive
sole-source and competitive-bid                                          Inspector General
contracts set aside for minority-                                               ***
owned and disadvantaged small          To promote integrity, economy, and efficiency, we encourage you to report suspected
businesses. Although the execu-         instances of fraud, waste, abuse, or mismanagement in any SBA program to the OIG
tive controlled the second firm,                                             Hotline* at
the company had obtained its                            http://www.sba.gov/office-of-inspector-general/2662
8(a) status based on the disad-
vantaged status of the firm’s
                                                           Or call the OIG Hotline toll-free, at (800) 767-0385
nominal owner. The Florida
man admitted that he agreed to
pay the executive of the second     *In accordance with Sections 7 and 8L(b)(2)(B) of the Inspector General’s Act, confidentiality of a
                                    complainant’s personally identifying information is mandatory, absent express consent by the
firm and the firm a fee in ex-
                                    complainant authorizing the release of such information.
change for allowing the man to
use its 8(a) status to obtain Na-
tional Aeronautics and Space
Administration (NASA) and oth-
er U.S. government contracts.
Although the second firm was
required to perform at least
50% of the work on the con-               We welcome your comments concerning this update or other OIG publications.
tracts and had represented it                     To obtain copies of these documents please contact us at:
would do so, no employees
from the firm actually per-                                                  SBA OIG
formed any work. Instead, the                                          409 Third Street SW,
Florida man and others did all of                                            7th Floor
the work as independent con-
                                                                     Washington, DC 20416
tractors but concealed that fact
from the government agencies.                                         E-mail: oig@sba.gov
In addition, he submitted fraud-                                   Telephone: (202) 205-6586
ulent proposals and invoices to                                        FAX (202) 205-7382
hide their scheme, used a third-                       Many OIG reports can be found on the OIG’s website at
party company’s Federal Em-                              http://www.sba.gov/office-of-inspector-general
ployer Identification Number to
prevent reporting of his contrac-
                                                   To view recent press releases, click here, or visit our website at
tor income to the IRS, and did
                                                        http://www.sba.gov/office-of-inspector-general/17611
not pay any taxes on the income
he received from the firm. This
is a joint investigation with
NASA OIG, DCIS, and DHS OIG.
